No. 19In the

Supreme Court of the United States

KROMA MAKEUP EU, LLC,
Petitioner,
v.
KIMBERLY KARDASHIAN, KOURTNEY
KARDASHIAN, AND KHLOE KARDASHIAN,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI

Jared H. Beck, Esq.
Elizabeth Lee Beck, Esq.
Victor A rca, Esq.
Beck & Lee, P.A.
12485 SW 137th Avenue,
Suite 205
Miami, FL 33186
(305) 234-2060

Cullin A. O’Brien, Esq.
Counsel of Record
Cullin O’Brien Law, P.A.
6541 NE 21st Way
Fort Lauderdale, FL 33308
(561) 676-6370
cullin@cullinobrienlaw.com

Counsel for Petitioner

290479

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
W hether the proper analytical framework for
determining standing to pursue trademark infringement
(i.e., false association) claims under § 43(a) of the Lanham
Act is: (1) the factors set forth in Lexmark International,
Inc. v. Static Control Components, Inc. (“Lexmark”), 572
U.S. 118, 133-34 (2014), as adopted by the Fourth Circuit;
(2) the more expansive “reasonable interest” test employed
by the First, Fifth, Seventh, and Ninth Circuits; or (3) the
more restrictive “rights in the name” test, as applied by
the Eleventh Circuit in this and prior cases.

ii
LIST OF PARTIES
Petitioner is Kroma Makeup EU, LLC, which was the
Appellant below. Respondents are Kimberly Kardashian,
Kourtney Kardashian, and Khloe Kardashian, who were
the Appellees below.

iii
RULE 29.6 STATEMENT
Pursuant to Rule 29.6 of the Supreme Court Rules,
Kroma Makeup EU, LLC makes this Disclosure of
Corporate Affiliations and Corporate Interest:
Kroma Makeup EU, LLC has no parent corporation,
and there are no publicly held corporations that own 10%
of more of its stock.

iv
RULE 14.1 RELATED CASES STATEMENT
• Boldface Licensing+Branding, Inc. v. By Lee
Tillett, Inc., No. CV 12-10269 ABC (PJWx), U.S.
District Court of California, Western Division.
Dismissed with prejudice Sep. 8, 2014.
• Kroma Makeup EU, LLC v. Boldface Licensing +
Branding, Inc. et al., No. 15-15060, U.S. Court of
Appeals for the Eleventh Circuit. Mandate entered
Mar. 8, 2017.
• Kroma Makeup EU, LLC v. Boldface Licensing +
Branding, Inc. et al., No. 14-cv-1551, U.S. District
Court for the Middle District of Florida. Judgment
entered Aug. 24, 2017.
• Kroma Makeup EU, LLC v. Boldface Licensing +
Branding, Inc. et al., No. 17-14211, U.S. Court of
Appeals for the Eleventh Circuit. Mandate entered
Jun. 12, 2019.

v
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . . .  iii
RULE 14.1 RELATED CASES STATEMENT . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT STATUTE . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . . 6
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

vi
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STAT ES COU RT OF A PPEA LS FOR
T H E ELE V EN T H CI RCU I T, FI LED
APRIL 1, 2019  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
A PPEN DI X B — OR DER OF T H E
UNITED STATES DISTRICT COURT
F OR T H E M I DDL E DI S T R IC T OF
FLORIDA, ORLANDO DIVISION, FILED
AUGUST 24, 2017 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13a
APPENDIX C — DENIAL OF REHEARING
OF T H E U N I T ED S TAT E S C OU RT
OF A PPEA LS FOR THE ELEV ENTH
CIRCUIT, FILED JUNE 4, 2019 . . . . . . . . . . . . . . 28a
APPENDIX D — 15 U.S.C. § 1125 . . . . . . . . . . . . . . . 30a

vii
TABLE OF CITED AUTHORITIES
Page
Cases
Belmora LLC v. Bayer Consumer Care AG,
819 F.3d 697 (4th Cir. 2016)  . . . . . . . . . . . . . . . . . . . . . 9
Boldface Licensing + Branding v.
By Lee Tillett, Inc.,
940 F. Supp. 2d 1178 (C.D. Cal. 2013) . . . . . . . . . . . . . 5
Camp Creek Hosp. Inns, Inc. v.
Sheraton Franchise Corp.,
139 F.3d 1396 (11th Cir. 1998)  . . . . . . . . . . . . . . . . 6, 10
Conagra, Inc. v. Singleton,
743 F.2d 1508 (11th Cir. 1984)  . . . . . . . . . . . . . . . . . . 10
Dovenmuehle v.
Gilborn Mortgage Midwest Corp.,
871 F.2d 697 (7th Cir. 1989) . . . . . . . . . . . . . . . . . . . . . 8
Kroma Makeup EU, LLC v.
Boldface Licensing & Branding, Inc.,
264 F. Supp. 3d 1294 (M.D. Fla. 2017)  . . . . . . . . 1, 5, 6
Kroma Makeup EU, LLC v.
Boldface Licensing + Branding, Inc.,
920 F.3d 704 (11th Cir. 2019)  . . . . . . . . . . . . . . . passim

viii
Cited Authorities
Page
Lexmark International, Inc. v.
Static Control Components, Inc.,
572 U.S. 118 (2014) . . . . . . . . . . . . . . . . . . . . . . . . passim
Norman M. Morris Corp. v. Weinstein,
466 F.2d 137 (5th Cir. 1972) . . . . . . . . . . . . . . . . . . . . . 8
Quabaug Rubber Co. v. Fabiano Shoe Co.,
567 F.2d 154 (1st Cir. 1977)  . . . . . . . . . . . . . . . . . . . 5, 8
Smith v. Moreno,
648 F.2d 602 (9th Cir. 1981) . . . . . . . . . . . . . . . . . . . . . 9
Statutes and Other Authorities
15 U.S.C, § 1051  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
15 U.S.C. § 1125  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
15 U.S.C. § 1125(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 7
15 U.S.C. § 1125(a)(1)(A)  . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1331  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 1332  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

ix
Cited Authorities
Page
John L. Brennan, Determining Trademark
Standing in the Wake of Lex ma rk, 9 0
Notre Dame L. Rev. 1692 (2015) . . . . . . . . . . . . . . . . . 8
Rebecca Tushnet, Running The Gamut from A to
B: Federal Trademark and False Advertising
Law, 159 U. Penn. L. Rev. 1305 (2011) . . . . . . . . . . . . 7
K i m J. L a nd sm a n , Da n iel C. Gl a z e r, &
Irene C. Treloar, Standing and Joinder
Considerations in Trademark Litigation and
Licenses, 99 Trademark Rep. 1437 (2009) . . . . . . . . . 7

1
OPINIONS BELOW
The August 24, 2017, Order of the United States
District Court for the Middle District of Florida, which
granted summary judgment to the Kardashians on
Kroma EU’s trademark infringement claims, is reported
at Kroma Makeup EU, LLC v. Boldface Licensing &
Branding, Inc., 264 F. Supp. 3d 1294 (M.D. Fla. 2017), and
is reproduced in Appendix B. The April 1, 2019, Opinion
of the three-judge Panel of the Eleventh Circuit, which
affirmed the District Court’s Order, is reported at Kroma
Makeup EU, LLC v. Boldface Licensing & Branding,
Inc., 920 F.3d 704 (11th Cir. 2019), and is reproduced in
Appendix A. The June 4, 2019, Order of the Eleventh
Circuit, which denied rehearing and rehearing en banc,
is unreported, and is reproduced in Appendix C.
JURISDICTION
The judgment of the Eleventh Circuit was entered
on April 1, 2019. A timely petition for rehearing and
rehearing en banc was filed on April 22, 2019, and was
denied on June 4, 2019. The jurisdiction of this Court is
invoked under 28 U.S.C. § 1254(1).
RELEVANT STATUTE
The statutory claim at issue is created by 15 U.S.C.
§ 1125(a)(1)(A), which provides as follows:
Any person who, on or in connection with
any goods or services, or any container for
goods, uses in commerce any word, term,
name, symbol, or device, or any combination

2
thereof, or any false designation of origin, false
or misleading description of fact, or false or
misleading representation of fact, which—
....
is likely to cause confusion, or to cause mistake,
or to deceive as to the affiliation, connection, or
association of such person with another person,
or as to the origin, sponsorship, or approval
of his or her goods, services, or commercial
activities by another person, . . . shall be liable
in a civil action by any person who believes that
he or she is likely to be damaged by such act.
The full text of 15 U.S.C. § 1125 is reproduced at Appendix
D.
STATEMENT OF THE CASE
This Petition involves a three-way circuit split on
the standing requirements for a plaintiff to bring a
§ 43(a) Lanham Act trademark infringement (i.e., false
association) claim. With respect to this issue, the Eleventh
Circuit Panel below relied on a prior Eleventh Circuit
case on the “rights in the name” test to sue for trademark
infringement. Kroma Makeup EU, LLC v. Boldface
Licensing + Branding, Inc., 920 F.3d 704, 708 (11th Cir.
2019), App. 8a.
The facts relevant to this Petition are set forth in the
Opinion of the Eleventh Circuit. See id. at 706-07, App.
2a-5a. In summary, Kroma Makeup EU, LLC (“Kroma
EU”), asserted trademark infringement claims under

3
§ 43(a) of the Lanham Act against Kimberly, Kourtney
and Khloe Kardashian (collectively, the “Kardashians”)
based on the Kardashians’ KHROMA brand of cosmetics
that infringed on the preexisting KROMA makeup brand
sold by Kroma EU in Europe.
Jurisdiction was proper in the court of the first
instance, in this case the United States District Court
for the Middle District of Florida, pursuant to 28 U.S.C.
§ 1331 as Kroma EU’s underlying complaint asserted
claims arising under federal law, and pursuant to 28 U.S.C.
§ 1332 as there was complete diversity of citizenship.
The relationship of Kroma EU to the KROMA
trademark was summarized by the Eleventh Circuit as
follows:
Kroma EU is the former European distributor
of cosmetics products using the federally
registered mark, KROMA. The owner and
registrant of the mark is By Lee Tillett, Inc.
(“Tillett”) and the rights to use the KROMA
mark in the United States rest solely with
Tillett. In October 2012, Tillett granted an
exclusive license to Kroma EU to import, sell,
and distribute KROMA products in Europe,
and to use the KROMA mark in furtherance of
its business. As part of the licensing agreement,
Tillett guaranteed that it owned the KROMA
mark and would hold Kroma EU harmless
from any judgments against Tillett based on
the mark. Tillett retained the right to use the
KROMA mark in the United States.

4
Kroma, 920 F.3d at 706, App. 2a.
A s summar ized by the Eleventh Circuit, the
substance of Kroma EU’s Lanham Act claims against the
Kardashians was as follows:
Defenda nt -App el lee s — t he K a rda sh i a n
sist ers —were celebr ity endorsers of a
cosmetic line called “Khroma Beauty,” sold
and manufactured by Defendant Boldface
Licensing & Branding, Inc. (“Boldface”). The
Kardashians claim that they had no personal
knowledge of the KROMA trademark until an
entertainment news website, TMZ, published
an article about the Kardashians’ potential
infringement. However, before the Khroma
Beauty line launched, Boldface had purportedly
conducted a trademark search that revealed
the existence of the KROMA mark. The
Kardashians claim that they did not receive
this information. Boldface sought to register
the KHROMA or KARDASHIAN KHROMA
mark with the U.S. Patent and Trademark
Office, but registration was denied because
of likelihood of confusion with the previously
registered KROMA mark.
After the Khroma line was released, Boldface
sought a declaratory judgment in California
federal court that Boldface did not infringe
the KROMA trademark. There, Tillett filed a
trademark infringement counterclaim, adding
the Kardashians as counterclaim defendants.
The California district court granted Tillett’s

5
motion for a preliminary injunction against
Boldface, finding that Tillett had demonstrated
a likelihood of success on the trademark
infringement claim. Boldface Licensing +
Branding v. By Lee Tillett, Inc., 940 F. Supp.
2d 1178 (C.D. Cal. 2013). Thereafter, Boldface
rebranded the product line to “Kardashian
Beauty” and the parties settled the dispute.
[Kroma EU] was not a party to the California
action and did not receive a share of the
settlement recovery from Tillett.
Kroma EU subsequently filed this action in
the Middle District of Florida against Boldface
and the Kardashians, alleging that Boldface
directly infringed the KROMA trademark
under common law trademark infringement
and the Lanham Act by distributing “Khroma”
branded cosmetics in Europe, and that the
Kardashians were vicar iously liable for
Boldface’s infringement….
Id. at 706, App. 3a-4a.
The District Court granted summary judgment to the
Kardashians, holding that “[t]o have § 1125(a) standing, a
licensee must have contractual in addition to statutory,
standing.” Kroma Makeup EU, LLC v. Boldface Licensing
+ Branding, Inc., 264 F. Supp. 3d 1294, 1299 (M.D. Fla.
2017), App. 22a. Although it recognized that “[n]umerous
courts,” including the First Circuit in Quabaug Rubber
Co. v. Fabiano Shoe Co., 567 F.2d 154, 160 (1st Cir. 1977),
have held trademark licensees to have standing to sue
for trademark infringement under § 43(a), the District

6
Court nonetheless applied Eleventh Circuit precedent to
find that the license agreement between Kroma EU and
Tillett failed to provide Kroma EU with sufficient “rights
in the name” Kroma to pursue trademark infringement
claims against the Kardashians. See Kroma, 264 F. Supp.
3d at 1299-1301, App. at 20a-25a.
The Eleventh Circuit disagreed with the District
Court on the fundamental nature of the inquiry being
conducted, finding that it was one not of standing but
“whether the statute grants the plaintiff the cause of
action that he asserts.” Kroma, 920 F.3d at 708. While
reorienting the analysis from Kroma EU’s standing to
whether the Lanham Act grants it a claim, the Eleventh
Circuit nonetheless affirmed the District Court’s grant
of summary judgment to the Kardashians, holding that
Kroma EU could not bring suit because “the licensing
agreement between Tillett and Kroma EU” did not afford
“Kroma EU, the licensee, sufficient ‘rights in the name’
to sue under the Lanham Act[.]” Id. (quoting Camp Creek
Hosp. Inns, Inc. v. Sheraton Franchise Corp., 139 F.3d
1396, 1412 (11th Cir. 1998)). The Eleventh Circuit denied
Kroma EU’s petition for rehearing and rehearing en banc
by its Order of June 4, 2019.
REASONS FOR GRANTING THE PETITION
Granting the Petition for Writ of Certiorari will
enable this Court to provide much needed guidance on
the application of an important federal statute and will
resolve wide-spread confusion and disagreement among
the United States circuit courts as to the proper test
for standing to pursue trademark infringement claims
(sometimes referred to as “false association” claims) under
§ 43(a) of the Lanham Act.

7
Section 43(a) creates separate claims for trademark
infringement/false association and false advertising in
“nearly identical and often overlapping language.” See 15
U.S.C. § 1125(a); Rebecca Tushnet, Running The Gamut
from A to B: Federal Trademark and False Advertising
Law, 159 U. Penn. L. Rev. 1305, 1305 (2011). Despite the
textual similarity, courts have not adjudicated the two
types of Lanham Act claims in a uniform manner. One
salient example is in the area of standing, where courts
have historically applied “much more relaxed” standing
requirements to trademark infringement plaintiffs than
to false advertising plaintiffs. See id. at 1374-82. Within
this vein, “[t]rademark licensees long have had standing
to sue for infringement of the licensed mark under
Section 43(a)” subject to exceptions where “the applicable
license agreement restricts the licensee’s ability to bring
suit.” See Kim J. Landsman, Daniel C. Glazer, & Irene
C. Treloar, Standing and Joinder Considerations in
Trademark Litigation and Licenses, 99 Trademark Rep.
1437, 1437-39 (2009).
In 2014, this Court overhauled the analytical
framework for determining a party’s standing to sue
under § 43(a) of the Lanham Act when it decided Lexmark
International, Inc. v. Static Control Components, Inc. In
affirming the Sixth Circuit’s dismissal of a § 43(a) false
advertising claim, Lexmark adopted a two-part test for
determining whether a Lanham Act false advertising
plaintiff may state a cause of action. See Lexmark,
572 U.S. at 140 (“To invoke the Lanham Act’s cause of
action for false advertising, a plaintiff must plead (and
ultimately prove) an injury to a commercial interest in
sales or business reputation proximately caused by the
defendant’s misrepresentations.”). “The scope of this
holding remains unclear, however. The Supreme Court

8
failed to specify whether this standard applies only to
false advertising claims brought pursuant to section
43(a)(1)(B) of the Lanham Act, or if it also applies to false
association claims brought under section 43(a)(1)(A).”
John L. Brennan, Determining Trademark Standing in
the Wake of Lexmark, 90 Notre Dame L. Rev. 1692, 1697
(2015).
While Lexmark resolved a three-way circuit split
on standing requirements for § 43(a) false advertising
claims, the ambiguity regarding its scope has compounded
a preexisting circuit split on standing requirements for
§ 43(a) trademark infringement claims. Because the
Eleventh Circuit’s Opinion in this case further contributes
to this split, this case is an appropriate vehicle for this
Court to clarify the scope of Lexmark while addressing
the appropriate analytical framework to be used by
courts to determine the circumstances under which a
party has standing to maintain an action for trademark
infringement under § 43(a) of the Lanham Act.
Prior to Lexmark, the First, Fifth, Seventh, and Ninth
Circuits adopted an approach to trademark infringement
standing that views standing to sue for trademark
infringement under § 43(a) as hinging upon whether
the plaintiff has “a reasonable interest to be protected
against” the infringement. See Quabaug, 567 F.2d at 160
(trademark licensee had standing as “one who may suffer
adverse consequences” from infringement); Norman M.
Morris Corp. v. Weinstein, 466 F.2d 137, 142 (5th Cir.
1972) (trademark licensee had standing as “a person
damaged by” infringement); Dovenmuehle v. Gilborn
Mortgage Midwest Corp., 871 F.2d 697, 700 (7th Cir. 1989)
(plaintiffs lacked standing to sue for infringement of trade

9
name where they retained no interest in name upon sale
to bank and asserted no damages); Smith v. Moreno, 648
F.2d 602, 608 (9th Cir. 1981) (actor had standing to sue
film distributor in “reverse passing off” case; “appellant,
as one in the business of providing his talents for use in
the creation of an entertainment product, is uniquely
situated to complain of injury resulting from a film
distributor’s misidentification of appellant’s contribution
to the product”).
In 2016, the Fourth Circuit applied Lexmark and
its two-part test to the question of whether a foreign
pharmaceutical manufacturer that used a trademark
in Mexico could sue the registrant of the same mark in
the United States for false association under § 43(a). See
Belmora LLC v. Bayer Consumer Care AG, 819 F.3d 697,
707-12 (4th Cir. 2016). In a departure from the pre-Lexmark
line of cases, the Fourth Circuit held it could. According to
the Fourth Circuit, the foreign pharmaceutical company
– despite lacking “a protectable interest in the FLANAX
mark in the United States” – could nonetheless sue a
U.S. company marketing FLANAX products under a
registered U.S. trademark as it was able to plead a loss of
customers (“injury to commercial interest”) “proximately
caused” by the U.S. company’s “passing off” of its
FLANAX products to Mexican-Americans familiar with
the foreign company’s FLANAX products and shoppers
crossing the border. See id. at 708-13.
In this case, the Eleventh Circuit applied a third
analytical framework for trademark infringement claims
under § 43(a) – the “rights in the name” test. See Kroma, 920
F.3d at 708-10, App. 6a-12a. Pursuant to this framework,
“any Lanham Act plaintiff must have rights in the name at

10
issue to seek protection[.]” Camp Creek Hospitality Inns,
Inc. v. Sheraton Franchise Corp., 139 F.3d 1396, 1412 (11th
Cir. 1998); see also Conagra, Inc. v. Singleton, 743 F.2d
1508, 1512 (11th Cir. 1984) (“Our cases have established
two elements that Conagra had to prove to merit injunctive
relief under § 43(a) of the Lanham Act: . . . (1) that it has
trademark rights in the mark or name at issue. . .; and
(2) that the defendant adopted a mark or name that was the
same, or confusingly similar to the plaintiff’s mark, such
that there was a likelihood of confusion for consumers as to
the proper origin of the goods created by the defendant’s
use of the Singleton name in his trade.” (footnote and
citations omitted)).
The Eleventh Circuit’s Opinion applying the “rights in
the name” test in this case appears to exacerbate the already
existing three-way circuit split by imposing a standard for
analyzing § 43(a) trademark infringement claims that is
much more restrictive than in any other circuit. Rather
than ask whether Kroma EU had a reasonable interest
to be protected against the Kardashians’ infringement of
the KROMA mark, or, per Lexmark, whether Kroma EU
incurred an injury to commercial interest as a proximate
result of the infringement, the Eleventh Circuit’s inquiry
was strictly limited to whether the licensing agreement
between Kroma EU and the American owner of the
mark, Tillett, authorized Kroma EU to bring suit against
infringers. See Kroma, 920 F.3d at 708-10. Because the
agreement “plainly authorized” Tillett, but not Kroma EU,
to sue for infringement, the Eleventh Circuit concluded
that “the licensing agreement does not give Kroma EU
sufficient ‘rights in the name’ to sue under the Lanham
Act.” Id. at 710.

11
If either of the other two less restrictive approaches
to § 43(a) Lanham Act standing were applied in this case,
it is likely that Kroma EU would be permitted to assert
the trademark infringement claims.
First, under the pre-Lexmark “reasonable interest”
test employed by the First, Fifth, Seventh, and Ninth
Circuits, Kroma EU would likely have a valid claim for
trademark infringement because it was the exclusive
licensee and distributor of KROMA products in Europe.
And no provision of the license agreement waived,
restricted, abandoned, or otherwise forfeited Kroma EU’s
right to bring a trademark infringement claim under the
Lanham Act.
Second, if the proper analysis for a § 43(a) trademark
infringement claim is provided by the two-part Lexmark
test – as held by the Fourth Circuit – then the dismissal
of Kroma EU’s trademark infringement claims should be
reversed. As alleged in the case, Kroma EU lost sales due
to consumer confusion with the Kardashians’ KHROMA
products and, indeed, was ultimately forced out of business
as a result. The presence of both (1) injury to commercial
interest; and (2) causation of the injury by the infringing
conduct means that the Lexmark analysis yields valid
§ 43(a) trademark infringement claims for Kroma EU
against the Kardashians.
The Eleventh Circuit dismissed Kroma EU’s Lanham
Act claims because it believed it was governed by the
“rights in the name” test – an analysis which only the
Eleventh Circuit has applied of all circuits to consider the
issue of standing to bring § 43(a) trademark infringement/
false association claims. This Court should grant Kroma

12
EU’s Petition to clarify the scope of Lexmark and allow
the Court to consider the proper analytical framework for
determining a plaintiff’s entitlement to bring a trademark
infringement/false association claim under §43(a) of the
Lanham Act and to thereby resolve the widening circuit
split on this important issue of federal law.
CONCLUSION
For these reasons, Petitioner respectfully asks that
this Petition for Writ of Certiorari be granted.
Respectfully submitted,
Jared H. Beck, Esq.
Elizabeth Lee Beck, Esq.
Victor A rca, Esq.
Beck & Lee, P.A.
12485 SW 137th Avenue,
Suite 205
Miami, FL 33186
(305) 234-2060

Cullin A. O’Brien, Esq.
Counsel of Record
Cullin O’Brien Law, P.A.
6541 NE 21st Way
Fort Lauderdale, FL 33308
(561) 676-6370
cullin@cullinobrienlaw.com

Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT, FILED APRIL 1, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 17-14211
D.C. Docket No. 6:14-cv-01551-PGB-GJK
KROMA MAKEUP EU, LLC, A UNITED
KINGDOM LIMITED LIABILITY COMPANY,
Plaintiff-Appellant,
versus
BOLDFACE LICENSING + BRANDING, INC.,
A NEVADA CORPORATION, KIMBERLY
KARDASHIAN, A CALIFORNIA RESIDENT,
KOURTNEY KARDASHIAN, A CALIFORNIA
RESIDENT, KHLOE KARDASHIAN, A
CALIFORNIA RESIDENT, BY LEE TILLETT,
INC., A FLORIDA CORPORATION,
Defendants-Appellees.
Appeal from the United States District Court
for the Middle District of Florida
April 1, 2019

2a
Appendix A
Before MARCUS and DUBINA, Circuit Judges, and
GOLDBERG,* Judge.
GOLDBERG, Judge:
Plaintiff-Appellant Kroma Makeup EU, LLC (“Kroma
EU”) appeals the district court’s grant of summary
judgment based on its finding that Kroma EU lacked
standing to enforce the KROMA trademark. Because
Kroma EU does not have sufficient rights in the mark to
sue under the Lanham Act, we affirm the judgment of
the district court.
BACKGROUND
Kroma EU is the former European distributor of
cosmetics products using the federally registered mark,
KROMA. The owner and registrant of the mark is By Lee
Tillett, Inc. (“Tillett”) and the rights to use the KROMA
mark in the United States rest solely with Tillett. In
October 2012, Tillett granted an exclusive license to Kroma
EU to import, sell, and distribute KROMA products in
Europe, and to use the KROMA mark in furtherance of
its business. As part of the licensing agreement, Tillett
guaranteed that it owned the KROMA mark and would
hold Kroma EU harmless from any judgments against
Tillett based on the mark. Tillett retained the right to use
the KROMA mark in the United States.

* Honorable Richard W. Goldberg, United States Court of
International Trade Judge, sitting by designation.

3a
Appendix A
Defendant-Appellees—the Kardashian sisters—were
celebrity endorsers of a cosmetic line called “Khroma
Beauty,” sold and manufactured by Defendant Boldface
Licensing & Branding, Inc. (“Boldface”). The Kardashians
claim that they had no personal knowledge of the KROMA
trademark until an entertainment news website, TMZ,
published an article about the Kardashians’ potential
infringement. However, before the Khroma Beauty
line launched, Boldface had purportedly conducted a
trademark search that revealed the existence of the
KROMA mark. The Kardashians claim that they did not
receive this information. Boldface sought to register the
KHROMA or KARDASHIAN KHROMA mark with
the U.S. Patent and Trademark Office, but registration
was denied because of likelihood of confusion with the
previously registered KROMA mark.
After the Khroma line was released, Boldface sought
a declaratory judgment in California federal court that
Boldface did not infringe the KROMA trademark. There,
Tillett filed a trademark infringement counterclaim,
adding the Kardashians as counterclaim defendants.
The California district court granted Tillett’s motion for
a preliminary injunction against Boldface, finding that
Tillett had demonstrated a likelihood of success on the
trademark infringement claim. Boldface Licensing +
Branding v. By Lee Tillett, Inc., 940 F. Supp. 2d 1178 (C.D.
Cal. 2013). Thereafter, Boldface rebranded the product
line to “Kardashian Beauty” and the parties settled the
dispute. Kroma was not a party to the California action
and did not receive a share of the settlement recovery
from Tillett.

4a
Appendix A
Kroma EU subsequently filed this action in the Middle
District of Florida against Boldface and the Kardashians,
alleging that Boldface directly infringed the KROMA
trademark under common law trademark infringement
and the Lanham Act by distributing “Khroma” branded
cosmetics in Europe, and that the Kardashians were
vicariously liable for Boldface’s infringement. Kroma
EU also brought claims against Tillett, alleging a cause
of action for promissory estoppel. As to the promissory
estoppel claim, the district court held in an earlier order
that under Florida law, a foreign licensee could not state
a claim for promissory estoppel against its licensor;
however, Kroma EU was able to proceed against Tillett
under a breach of contract theory. Kroma Makeup EU,
Ltd. v. Boldface Licensing + Branding, Inc., No. 6:14-cv1551-ORL, 2015 U.S. Dist. LEXIS 49534, 2015 WL
1708757, at *1 (M.D. Fla. Apr. 15, 2015).
The Kardashians moved for summary judgment
arguing that Kroma EU did not have the requisite
standing to bring the infringement action and that the
trademark infringement cause of action was barred
by claim preclusion. Kroma EU also moved for partial
summary judgment on the issue of liability. Earlier in the
litigation, Tillett successfully moved to compel arbitration
and Kroma EU’s claim against Tillett remains stayed
pending the arbitration.
The district court granted the Kardashians’ motion.
The court found that Kroma EU lacked standing to
sue for trademark infringement and did not reach
the Kardashians’ claim preclusion argument. Relying
primarily on the licensing agreement between Tillett and

5a
Appendix A
Kroma EU, the district court held that the agreement
“plainly authorized only Tillett to enforce the trademarks”
and to “protect” the mark “from any attempts of illegal
use,” while “Kroma EU’s sole directive was to inform
Tillett of instances of infringement.” Based on this
reading, the district court concluded that these provisions
“plainly authorized only Tillett to enforce the trademarks
governed by the License Agreement.” Therefore, Kroma
EU “lack[ed] contractual authority, and hence standing,
to pursue § 1125(a) violations against infringers in its
own capacity.” Based on Kroma EU’s purported lack of
standing, the court denied Kroma EU’s motion for partial
summary judgment as moot.
JURISDICTION
At the time of this appeal, the district court had not
yet disposed of all claims against all parties. Kroma
EU’s claim against Tillett had been stayed pending
arbitration, and the district court had failed to enter a
default judgment as to Boldface, which was served with
process but had never appeared. Instead of dismissing
the appeal for lack of jurisdiction, however, we gave
Kroma EU the opportunity to request certification of the
summary judgment order from the district court under
Rule 54(b). Order, Kroma Makeup EU, LLC v. Boldface
Licensing & Branding, Inc., et al., No. 17-14211, 2019 U.S.
App. LEXIS 3592 (11th Cir. Feb. 5, 2019). A Rule 54(b)
judgment has now been entered as to the claims against
the Kardashians and final judgment was entered in favor
of the Kardashians. Rule 54(b) Judgment, Kroma Makeup
EU, LLC v. Boldface Licensing & Branding, Inc., et al.,
6:14-cv-1551, ECF No. 172, 2019 U.S. Dist. LEXIS 27268

6a
Appendix A
(M.D. Fla. Feb. 21, 2019). The Court, then, maintains
jurisdiction over this appeal.
STANDARD OF REVIEW
The district court’s grant of summary judgment is
reviewed de novo and we apply the same legal standards
that governed the district court. Johnson v. Bd. of Regents
of Univ. of Ga., 263 F.3d 1234, 1242 (11th Cir. 2001).
Summary judgment is proper when the evidence shows
“that there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). When reviewing a grant of summary
judgment, we view the evidence in the light most favorable
to the non-moving party and resolve all reasonable doubts
about the facts in favor of the non-movant. Feliciano v.
City of Miami Beach, 707 F.3d 1244, 1247 (11th Cir. 2013)
(quoting Skop v. City of Atlanta, 485 F.3d 1130, 1143 (11th
Cir. 2007)). The district court’s judgment can be affirmed
on any ground supported by the record, regardless of
the basis for the initial decision. Parks v. City of Warner
Robins, 43 F.3d 609, 613 (11th Cir. 1995).
ANALYSIS
The issue before us is the extent of a licensee’s rights
in a trademark infringement action under Section 43(a) of
the Lanham Act. While the Lanham Act typically evokes
questions of standing, as a licensee, Kroma EU’s rights
thereunder rely upon the licensing agreement it entered
with Tillett. We adopt the position taken by the district
courts in this circuit—that a licensee’s right to sue to
protect the mark “largely depends on the rights granted

7a
Appendix A
to the licensee in the licensing agreement.” Drew Estate
Holding Co. v. Fantasia Distrib., Inc., 875 F. Supp. 2d
1360, 1366 (S.D. Fla. 2012) (quoting Hako-Med USA, Inc.
v. Axiom Worldwide, Inc., No. 8:06-cv-1790-T-27EAJ,
2006 U.S. Dist. LEXIS 94239, 2006 WL 3755328, at
*6 (M.D. Fla. Nov. 15, 2006)). See also Aceto Corp. v.
TherapeuticsMD, Inc., 953 F. Supp. 2d 1269, 1279 (S.D.
Fla. 2013) (“[S]tanding to sue depends largely on the rights
granted to the licensee under the licensing agreement.”).
Kroma EU disputes the district court’s ruling that it
lacks the requisite standing to bring an infringement claim
under the Lanham Act. The Lanham Act provides a cause
of action against “[a]ny person who, on or in connection
with any goods or services, . . . uses in commerce any
word, term, name, symbol, or device, or any combination
thereof, . . . [which] is likely to cause confusion . . . as to
the affiliation, connection, or association of such person
with another person, or as to the origin, sponsorship,
or approval of his or her goods, services, or commercial
activities by another person.” 15 U.S.C. § 1125(a)(1).
The statute affords a cause of action to “any person who
believes that he or she is likely to be damaged.” Id. But,
despite this broad language, 1125(a) does not get “such
an expansive reading” so as to allow “all factually injured
plaintiffs to recover.” Lexmark Int’l, Inc v. Static Control
Components, Inc., 572 U.S. 118, 129, 134 S. Ct. 1377, 188
L. Ed. 2d 392 (2014) (quoting Holmes v. Sec. Inv’r Prot.
Corp., 503 U.S. 258, 266, 112 S. Ct. 1311, 117 L. Ed. 2d 532
(1992)). This is especially true where, as here, a licensing
agreement between two parties governs each party’s
entitlement to infringement claims.

8a
Appendix A
The court below focused its attention on whether
the license agreement between Tillett and Kroma EU
conferred adequate standing on Kroma EU to bring a
claim under Section 1125(a). But, the question before us
is not that of traditional standing. Indeed, it is “not [of]
standing at all.” City of Miami v. Bank of Am. Corp.,
800 F.3d 1262, 1276 (11th Cir. 2015), vacated on other
grounds, 137 S. Ct. 1296, 197 L. Ed. 2d 678 (2017). Rather,
it is whether the statute “grants the plaintiff the cause
of action that he asserts.” Bank of Am. Corp. v. City of
Miami, 137 S. Ct. 1296, 1302, 197 L. Ed. 2d 678 (2017).
See also Lexmark, 572 U.S. at 128 n.4. (“We have on
occasion referred to this inquiry as ‘statutory standing’
and treated it as effectively jurisdictional. That label is an
improvement over the language of ‘prudential standing,’
since it correctly places the focus on the statute. But it,
too, is misleading, since the absence of a valid . . . cause of
action does not implicate subject-matter jurisdiction, i.e.,
the court’s statutory or constitutional power to adjudicate
the case.” (internal quotation marks and citations
omitted)). In other words, does the licensing agreement
between Tillett and Kroma EU give Kroma EU, the
licensee, sufficient “rights in the name” to sue under the
Lanham Act? Camp Creek Hosp. Inns, Inc. v. Sheraton
Franchise Corp., 139 F.3d 1396, 1412 (11th Cir. 1998).
The answer is no.
To start, “a statutory cause of action extends only to
plaintiffs whose interests ‘fall within the zone of interest
protected by the law invoked.’” Lexmark, 572 U.S. at 129
(quoting Allen v. Wright, 468 U.S. 737, 751, 104 S. Ct. 3315,
82 L. Ed. 2d 556 (1984)). The licensing agreement affords

9a
Appendix A
rights and imposes obligations on the parties relating
to the enforcement of any trademark claims. As such,
there is little dispute between the parties that we turn
to that agreement to determine if Kroma’s interests fall
within the zone of interest protected by the Lanham Act.
In so doing, we fall back on basic principles of contract
interpretation and “construe the agreement as a whole,”
Westport Ins. Corp. v. Tuskegee Newspapers, Inc., 402
F.3d 1161, 1164 (11th Cir. 2005), careful to afford the
plain language meaning of “each and every word [the
agreement] contains,” Equity Lifestyle Props., Inc. v.
Fla. Mowing & Landscape Serv., Inc., 556 F.3d 1232,
1242 (11th Cir. 2009).
Here, applying the licensing agreement to this inquiry
is a straightforward exercise. The plain language of the
agreement demonstrates the parties’ intent for Tillett to
retain all ownership and enforcement rights. Kroma EU—
while it may have other rights under the agreement—does
not possess the ability to assert its rights in the mark in
this proceeding.
There are two integral provisions of the licensing
agreement between Tillett and Kroma EU as they
relate to trademark infringement. First, and in no
uncertain terms, ownership of the mark is reserved to
Tillett. Tillett retains the KROMA trademark as its
“exclusive and inalienable property” and “reserves the
right to assign/transfer it to any individual person or
legal entity.” Tethered to the ownership provision, the
agreement requires that Tillet “protect [the trademark]
properly from any attempts of illegal use, to the best of his
knowledge.” Should any infringement occur, Tillett would

10a
Appendix A
be required to “guarantee[] [Kroma EU] against any
claims . . . concerning [the mark’s] intellectual property
rights.” And even if there were any doubt about the
agreement’s terms as they relate to Tillett’s enforcement
obligation, the owner of Tillett, Aglaia Lee Rodriguez,
explained in a declaration to the district court that these
provisions were created with the intent to retain Tillett’s
enforcement power over the KROMA mark:
[M]y Company’s intention was to allow [Kroma
EU] to advertise and sell our Kroma products
in Europe, but at the same time to retain
for my Company all rights to the KROMA
trademark, including the exclusive right to
protect and enforce the KROMA trademark
in any infringement actions. I wanted my
Company and its lawyers to exclusively control
the enforcement of the KROMA trademark,
because infringement actions and the publicity
surrounding them can have lasting effects on
the trademark.
The issue boils down to Kroma EU’s rights pursuant
to the agreement—and specifically, if an explicit obligation
on Tillett to protect against the mark’s infringement
precludes Kroma EU’s enforcement powers against the
same infringement. Certainly, Kroma EU maintained the
exclusive right to use the mark “for advertising purposes
and for the purpose of Goods sale and promotion” in
Europe. But importantly, Section 4.3.2 only vested Kroma
EU with the obligation to “inform [Tillett] of any illegal
use of the trademark,” prompting Tillett to file suit against

11a
Appendix A
the infringer—at which point Tillett would be required
to compensate Kroma for its losses resulting from the
infringement. These provisions read together indicate that
Tillett alone has the exclusive right to sue for infringement.
Otherwise, as the Kardashians point out, there would have
been little need for the agreement to require Tillett to
compensate Kroma EU for any loss from the infringement.
A nd in concert w ith the “time-honored maxim of
construction, expressio unius est exclusio alterius, the
inclusion of specific things implies the exclusion of those
not mentioned,” Cast Steel Prods., Inc. v. Admiral Ins.
Co., 348 F.3d 1298, 1303 (11th Cir. 2003), these provisions
“manifest the [parties’] ability to clearly and precisely
delegate and limit authority” over infringement claims,
In re Celotex Corp., 487 F.3d 1320, 1334 (11th Cir. 2007).
The licensing agreement—and at its core, Kroma EU’s
exclusion from any trademark protection rights coupled
with Tillett’s explicit enforcement power—does just that.
And contrary to Kroma EU’s suggestion that the
Kardashians’ interpretation of the agreement implies that
Kroma EU ceded to Tillett “any” or “every last shred”
of Kroma’s “ability to seek legal recourse”—our reading
of the licensing agreement makes no such inference. The
agreement—as understood by both parties—obliges
Tillett to indemnify Kroma EU for monetary losses caused
by any infringement. Surely, Tillett’s failure to do so
would potentially raise a cogent breach of contract cause
of action. As testament to that available recourse, that is
exactly what Kroma EU did when it brought a breach of
contract claim for Tillett’s alleged failure to compensate
Kroma in the California litigation. Kroma EU, then, is not

12a
Appendix A
left without a “shred” of its ability to seek legal recourse
based on its rights in the mark.
Our sister courts of appeals have agreed with the
general sentiment that a license agreement between two
parties can limit a licensee’s ability to bring a Lanham
Act claim. For example, in Finance Investments Co.
(Bermuda) v. Geberit AG, 165 F.3d 526 (7th Cir. 1998),
the licensee there was permitted to sue on its own behalf
only if the licensor declined to sue after it was notified
of the infringement. Otherwise, per the agreement, the
licensee’s sole recourse was to notify the licensor of any
infringing acts. Id. at 532. Thus, “[b]ecause the license
[was] the sole source giving the plaintiffs any interest
in the [] mark,” when the licensee failed to follow these
procedures, it was “strip[ped] . . . of the right to raise a
§ 43(a) claim.” Id.
The same can be said for Kroma EU. The licensing
agreement plainly authorized Tillett to file suit against
infringers. Kroma EU was limited in its available recourse:
it was assigned limited rights to the KROMA mark and the
agreement clearly delineated its only available recourse
regarding trademark infringement. Therefore, the
licensing agreement does not give Kroma EU sufficient
“rights in the name” to sue under the Lanham Act.
Accordingly, we affirm the judgment of the district
court.
AFFIRMED.

13a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE MIDDLE
DISTRICT OF FLORIDA, ORLANDO DIVISION,
FILED AUGUST 24, 2017
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
Case No: 6:14-cv-1551-Orl-40GJK
KROMA MAKEUP EU, LLC,
Plaintiff,
v.
BOLDFACE LICENSING + BRANDING, INC.,
KIMBERLY KARDASHIAN, KOURTNEY
KARDASHIAN, KHLOE KARDASHIAN
AND BY LEE TILLETT, INC.,
Defendants.
August 24, 2017, Decided
August 24, 2017, Filed
ORDER
This cause comes before the Court without oral
argument on the following:
1.

Defenda nt s, K i m K a rdash ia n, Kou r tney
Kardashian, and Khloe Kardashian’s, Motion
for Summary Judgment (Doc. 118), filed June 9,
2017;

14a
Appendix B
2.

Plaintiff’s Response in Opposition to Defendants’
Motion for Summary Judgment (Doc. 132), filed
June 23, 2017;

3.

Defenda nt s, K i m K a rdash ia n, Kou r tney
Kardashian, and Khloe Kardashian’s, Reply in
Support of Motion for Summary Judgment (Doc.
145), filed July 7, 2017;

4.

Plaintiff’s Motion for Partial Summary Judgment
(Liability Only) (Doc. 153), filed August 11, 2017;

5.

Defenda nt s, K i m K a rdash ia n, Kou r tney
Kardashian, and Khloe Kardashian’s, Opposition
to Plaintiff ’s Motion for Partial Summary
Judgment and Memorandum of Law (Doc. 154),
filed August 11, 2017; and

6.

Plaintiff’s Reply in Further Support of Its Motion
for Partial Summary Judgment (Doc. 155), filed
August 11, 2017.

The parties have completed their briefing and the
Court is otherwise fully advised on the premises. Upon
consideration and review of the record as cited by the
parties in their respective briefs, the Court will grant
Defendants, Kim Kardashian, Kourtney Kardashian,
and Khloe Kardashian’s Motion for Summary Judgment.
I.

BACKGROUND

Plaintiff, Kroma Makeup EU, LLC (“Kroma EU”),
seeks recovery from Defendants, Kimberly Kardashian,

15a
Appendix B
Kourtney Kardashian, and Khloe Kardashian (collectively,
“Kardashian Defendants”) on a vicarious liability theory
for (i) common law trademark infringement, and (ii)
violation of § 43(a) the Lanham Act, 15 U.S.C. § 1125(a).1
Defendant, By Lee Tillett, Inc. (“Tillett”), is a Floridabased corporation that owns a registered U.S. trademark
in “Kroma.” (Doc. 133, ¶ 3). In September 2010, Tillett
and Jay Willey, Ltd. (a U.K. company owned by Jeannette
Willey) entered into a license agreement granting Jay
Willey, Ltd. “the right to use the trademark of [Tillett]
for advertising purposes and Goods sale and promotion
. . . .” (Id. ¶¶ 4, 10). In October 2012, Tillett and Kroma
EU (a different U.K. company owned by Willey) entered
into a licensing agreement granting Kroma EU rights
to sell Kroma products in Europe (hereinafter “License
Agreement”). (Id. ¶ 5). Under the License Agreement,
Tillett retained ownership of the Kroma mark. (Doc.
118-6, § 4.1). The terms of the 2010 and 2012 agreements
“contain materially identical terms.” (Doc. 133, ¶ 6).

1. In addition to the claims against Kardashian Defendants,
Kroma EU’s initial complaint alleged counts of statutory and
common law trademark infringement against Boldface Licensing
+ Branding, Inc. (“Boldface”), one count of promissory estoppel
against By Lee Tillett—which this Court construed as a breach
of contract claim, Doc. 52, p. 28—and one count of tortious
interference against Boldface. (Id.). On February 5, 2015, default
was entered against Boldface. (Doc. 37). On November 9, 2015,
this Court granted Tillett’s motion to compel arbitration. (Doc.
76). Accordingly, neither Boldface nor Tillett remain a party to
this action.

16a
Appendix B
Section 4.3 of the License Agreement, titled “Renewal.
Protection,” prescribed how the trademark was to be
protected and allocated responsibilities among the parties.
(Doc. 118-6). The relevant subsections are reproduced in
full below:
4.3.1. [Tillett] undertakes to renew regularly
the certificate on the trademark/brand name
and other Goods patents/inventions/industrial
samples, and to protect them properly from
any attempts of illegal use, to the best of his
knowledge.
4.3.2. [Kroma EU] is obliged to inform [Tillett]
of any illegal use of the trademark in [Europe],
to the best of his knowledge.
(Doc. 118-6, §§ 4.3.1, 4.3.2). In May 2012, Kardashian
Defendants and Boldface “entered into a licensing
agreement authorizing Boldface to create and market
. . . cosmetics endorsed by the” Kardashian Defendants.
(Doc. 133, ¶ 14). In June 2012, Tillett learned that Boldface
planned to use the name “Khroma” for the Kardashianendorsed cosmetics line, then sent Boldface a cease and
desist letter. (Id. ¶¶ 14, 15). The parties dispute whether
Boldface or Kardashian Defendants selected “Khroma”
as the name for the products. (Docs. 118, ¶12; 132, § II.1).
In October 2012, Tillett and Boldface began settlement
discussions. (Doc. 133, ¶ 16). Tillett indicated to Willey that
her UK damages would be sought during negotiations.
(Id. ¶ 17). One of Tillett’s attorneys involved in the

17a
Appendix B
negotiations “provided Willey with updates on settlement
negotiations, marking them as ‘attorney/client privileged’
or ‘confidential.’” (Id.). Throughout the negotiations,
“Willey provided information, financials, and later
testimony, to support Tillett’s case against Boldface/
Kardashians.” (Id. ¶ 18).
With settlement discussions stalling, Boldface filed
suit in a California federal court seeking a declaratory
judgment that Boldface did not infringe the “Kroma”
trademark (hereinafter the “California Action”). (Id.
¶ 20). Tillett brought counterclaims against Boldface
for trademark infringement and third party claims
against Kardashian Defendants for vicarious trademark
infringement. (Doc. 1, ¶¶ 53-54; 133, ¶ 2). “Neither Kroma
EU nor Willey appeared as a party in the California
Action.” 2 (Doc. 133, ¶ 24). However, Willey gave a
Declaration that was used in support of Tillett’s motion
for a preliminary injunction, and Tillett’s principal cited
the Kroma mark’s “European distribution” in a separate
declaration made in support of the motion. (Id. ¶¶ 26-28).
On March 11, 2013, the California district court issued
a preliminary injunction prohibiting further use of the
“Khroma” mark by Boldface. (Doc. 153-31, p. 40) Boldface
then changed the name of its product line to “Kardashian
Beauty.” (Docs. 118, ¶ 23; 118-30).

2. Moreover, Willey did not contact Boldace or Defendants
to discuss settlement of the California Action. (Doc. 133, ¶ 30).

18a
Appendix B
On March 20, 2013, Willey’s U.K. counsel, Brandon
Titterington, wrote to Tillett’s counsel, admonishing them
for failing to take action to protect the Kroma mark in
Europe and requesting confirmation of Tillett’s intent to
share any potential settlement with Kroma EU. (Docs.
132, ¶ 32; 132-32, p. 5). Shortly thereafter, a settlement was
reached between Tillett, Boldface, and the Kardashians,
and the California Action was dismissed with prejudice.
(Doc. 133, ¶ 34). The agreement required Boldface to
make a “Settlement Payment” to Tillett and included
mutual releases of claims “which were, might or could
have been asserted in connection with the [California]
Action, the KROMA mark, the KHROMA mark or the
KARDASHIAN BEAUTY mark.” (Id. ¶ 34) (alteration
in original). Tillett did not share any of the settlement
proceeds with Kroma EU. (Doc. 133, ¶ 36).
Kroma EU filed its Complaint in this action on
September 24, 2014. (Doc. 1). On May 7, 2015, Kardashian
Defendants filed an Answer and Affirmative Defenses.
(Doc. 53). Kardashian Defendants and Kroma EU now
move for summary judgment.
II. STANDARD OF REVIEW
“The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). The party
moving for summary judgment must “cit[e] to particular
parts of materials in the record, including depositions,
documents, electronically stored information, affidavits or

19a
Appendix B
declarations, stipulations . . ., admissions, interrogatory
answers, or other materials” to support its position that
it is entitled to summary judgment. Fed. R. Civ. P. 56(c)
(1)(A). “The court need consider only the cited materials”
when resolving a motion for summary judgment. Fed. R.
Civ. P. 56(c)(3); see also HRCC, LTD v. Hard Rock Cafe
Int’l (USA), Inc., No. 16-17450, 703 Fed. Appx. 814, 2017
U.S. App. LEXIS 13690, 2017 WL 3207125, at *2 (11th
Cir. July 28, 2017) (per curiam) (holding that a district
court does not err by limiting its review to the evidence
cited by the parties in their summary judgment briefs).
A factual dispute is “genuine” only if “a reasonable
jury could return a verdict for the nonmoving party.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248, 106
S. Ct. 2505, 91 L. Ed. 2d 202 (1986). A fact is “material”
if the fact could affect the outcome of the lawsuit under
the governing law. Id. The moving party bears the
initial burden of identifying those portions of the record
demonstrating a lack of a genuine factual dispute. Celotex
Corp. v. Catrett, 477 U.S. 317, 323, 106 S. Ct. 2548, 91 L.
Ed. 2d 265 (1986); Hickson Corp. v. N. Crossarm Co., 357
F.3d 1256, 1260 (11th Cir. 2004). If the movant shows that
there is no evidence to support the non-moving party’s
case, the burden then shifts to the non-moving party
to demonstrate that there are, in fact, genuine factual
disputes which preclude judgment as a matter of law.
Porter v. Ray, 461 F.3d 1315, 1320 (11th Cir. 2006).
To satisfy its burden, the non-moving party “must do
more than simply show that there is some metaphysical
doubt as to the material facts.” Matsushita Elec. Indus.

20a
Appendix B
Co. v. Zenith Radio Corp., 475 U.S. 574, 586, 106 S. Ct.
1348, 89 L. Ed. 2d 538 (1986). Rather, the non-movant
must go beyond the pleadings and “identify affirmative
evidence” which creates a genuine dispute of material fact.
Crawford-El v. Britton, 523 U.S. 574, 600, 118 S. Ct. 1584,
140 L. Ed. 2d 759 (1998). In determining whether a genuine
dispute of material fact exists, the court must read the
evidence and draw all factual inferences therefrom in
the light most favorable to the non-moving party and
must resolve any reasonable doubts in the non-movant’s
favor. Skop v. City of Atlanta, 485 F.3d 1130, 1136 (11th
Cir. 2007). Summary judgment should only be granted
“[w]here the record taken as a whole could not lead a
rational trier of fact to find for the non-moving party.”
Matsushita, 475 U.S. at 587.
III.

DISCUSSION

Kardashian Defendants’ motion requests summary
judgment on two grounds: (i) that due to the License
Agreement between Kroma EU and Tillett, Kroma EU
lacks standing; and (ii) that claim preclusion applies to
Kroma EU’s remaining claims because Kroma EU was
in privity with Tillett with regard to claims brought
in the California Action. Plaintiff’s motion requests
summary judgment on the issue of liability, alleging that
Kardashian Defendants are collaterally estopped—by
issue preclusion—from contesting liability.
A.

Defendants’ Motion for Summary Judgment

The first issue presented by Kardashian Defendants’
summary judgment motion is whether a licensee with an

21a
Appendix B
exclusive license to use a mark in a territory, but who lacks
contractual authority to police the mark, has standing to
bring trademark infringement claims arising under the
Lanham Act or common law.
Section 43(a) of the Lanham Act, 15 U.S.C. § 1125(a),
creates a cause of action for false association and false
advertising. Specifically, § 1125(a) provides that infringers
“shall be liable in a civil action by any person who believes
that he or she is likely to be damaged by such act.”
(emphasis added). While the “any person” language of
the statute envisions expansive liability, a “Lanham Act
plaintiff must have rights in the name at issue to seek
protection.” Camp Creek Hosp. Inns, Inc. v. Sheraton
Franchise Corp., 139 F.3d 1396, 1412 (11th Cir. 1998).
Accordingly, consumers generally lack standing to sue
under the Lanham Act notwithstanding § 1125(a)’s broad
scope. See, e.g., Lexmark Int’l, Inc. v. Static Control
Components, Inc., 134 S. Ct. 1377, 1390, 188 L. Ed. 2d
392 (2014) (holding that “a plaintiff must allege an injury
to a commercial interest in reputation or sales” to have
§ 1125(a) standing).
Some non-owners have standing to sue under § 1125(a).
Quabaug Rubber Co. v. Fabiano Shoe Co., 567 F.2d 154,
160 (1st Cir. 1977). Numerous courts entertaining Lanham
Act claims have held certain licensees to possess standing.
See, e.g., Quabaug Rubber Co., 567 F.2d at 160; Sream,
Inc. v. LB Smoke Shop, Inc., No. 16-CV-24936-PCH,
2017 U.S. Dist. LEXIS 97406, 2017 WL 2735575, at *4
(S.D. Fla. 2017). Other courts have found licensees to
lack standing. Fin. Inv. Co. v. Geberit AG, 165 F.3d 526,
532 (7th Cir. 1998); TR Worldwide Phillyfood, LLC v.

22a
Appendix B
Tony Luke, Inc., No. 16-1185 (RBK/JS), 2017 U.S. Dist.
LEXIS 12239, 2017 WL 396539, at *3-4 (D.N.J. 2017).
The line that separates the licensees with standing from
the licensees without standing is drawn by the language
of the contract—specifically, the nature of the rights the
license grants the licensee. Compare Quabaug Rubber
Co., 567 F.2d at 157, 160 (holding that a nonexclusive
licensee with the contractual “right to enforce the licensed
trademark rights against infringers in the United States”
had standing to sue under § 1125(a)), and Sream, Inc., 2017
U.S. Dist. LEXIS 97406, 2017 WL 2735575, at *4 (finding
that a plaintiff adequately alleged § 1125(a) standing
by alleging to be an exclusive licensee possessing “all
enforcement rights to obtain injunctive and monetary
relief for past and future infringement of . . . trademarks”),
with Fin. Inv. Co., 165 F.3d at 532 (finding that a licensee
lacked § 1125(a) standing where the licensing agreement
prohibited such from bringing suit unless the licensor
was notified of the alleged infringement and failed to
sue first), and TR Worldwide, 2017 U.S. Dist. LEXIS
12239, 2017 WL 396539, at *3-4 (finding that an exclusive
licensee plaintiff, without contractual rights to enforce the
licensor’s intellectual property, lacked § 1125(a) standing).
To have § 1125(a) standing, a licensee must have
contractual, in addition to statutory, standing. A
licensee’s trademark rights derive from contract, so a
“licensee’s standing to bring a trademark infringement
claim ‘largely depends on the rights granted to the licensee
in the licensing agreement.’” Drew Estate Holding Co. v.
Fantasia Distrib., Inc., 875 F. Supp. 2d 1360, 1366 (S.D.
Fla. 2012) (quoting Hako—Med USA, Inc. v. Axiom

23a
Appendix B
Worldwide, Inc., No. 8:06-CV-1790-T-27EAJ, 2006 U.S.
Dist. LEXIS 94239, 2006 WL 3755328, at *6 (M.D. Fla.
2006)). Even assuming the presence of statutory standing,
a licensee lacks standing where the license agreement
explicitly allocates responsibility to police a trademark
with a licensor. Fin. Inv. Co., 165 F.3d at 532 (“Because the
license is the sole source giving the plaintiffs any interest
in the . . . mark, that same license’s refusal to give them
the right to sue under these circumstances strips them
of the right to raise a § [1125(a)] claim.”).
Kroma EU’s standing in this matter thus depends on
the rights it received under the License Agreement. The
touchstone of contract interpretation is the intent of the
parties. Alliance Metals, Inc. v. Hinely Indus., 222 F.3d
895, 901 (11th Cir. 2010); 11 Richard A. Lord, Williston
on Contracts § 32:2 (4th ed. 2012). Generally, the plain
meaning of the contract is the best evidence of the parties’
intent. Alliance Metals, 222 F.3d at 901; Lord, supra, at
§ 32:2. Contracts are to be read as a whole, and individual
provisions should not be interpreted in isolation. Mastro
Plastics Corp. v. Nat’l Labor Relations Bd., 350 U.S.
270, 279, 76 S. Ct. 349, 100 L. Ed. 309 (1956); Lord, supra
§ 32:5. Where a contract is ambiguous, courts may review
the parties’ course of performance in interpreting the
contract. Lord, supra, § 32:2.
The License Agreement between Tillett and Kroma
EU, in a section titled “Renewal. Protection,” committed
Tillett to “protect [the Kroma mark] properly from any
attempts of illegal use, to the best of his knowledge.” (Doc.
118-6, § 4.3.1). The succeeding subsection obliged Kroma

24a
Appendix B
EU to “inform [Tillett] of any illegal use of the trademark
in the sales Territory, to the best of his knowledge.” (Id.
§ 4.3.2).
Read together, §§ 4.3.1 and 4.3.2 plainly authorized
only Tillett to enforce the trademarks governed by the
License Agreement.3 Lord, supra, § 32:5. Kroma EU’s sole
directive was to inform Tillett of instances of infringement.
Further, Kroma EU’s role as a supportive nonparty in the
California Action accords with the conclusion that only
Tillett had contractual authority to enforce the Kroma
mark. Accordingly, Kroma EU lacks contractual authority,
and hence standing, to pursue § 1125(a) violations against
infringers in its own capacity.
3. To the extent the allegation in the Complaint that Kroma
EU was an “exclusive licensee” of the Kroma mark has current
vitality, the Court finds any such contention incorrect. (Doc. 1,
¶ 69). To qualify as an exclusive licensee, with the attendant
standing to enforce a trademark, the license agreement must
grant the licensee “all substantial rights” to the trademark. Aceto
Corp. v. TherapeuticsMD, Inc., 953 F. Supp. 2d 1269, 1279-80
(S.D. Fla. 2013). These contractual rights include the “right of
exclusivity, the right to transfer and most importantly the right
to sue infringers.” Hako—Med USA, Inc. v. Axiom Worldwide,
Inc., No. 8:06-CV-1790-T-27EAJ, 2006 U.S. Dist. LEXIS 94239,
2006 WL 3755328, at *5 (M.D. Fla. 2006) (emphasis added)
(quoting Biagro W. Sales, Inc. v. Helena Chem. Co., 160 F. Supp.
2d 1136, 1144 (E.D. Cal. 2001)). Because the License Agreement
(i) prohibited Kroma EU from enforcing the Kroma mark, (ii) only
gave Kroma EU rights to the trademark in Europe, (iii) prohibited
Kroma EU from transferring its contract rights, and (iv) failed to
vest independent ownership rights in Kroma EU, the Court finds
that Kroma EU was not an exclusive licensee. See id.; Doc. 118-6,
§§ 1.3, 2.1.1, 4.1.4, 4.3.1, 4.3.2, app. 1 § 1.

25a
Appendix B
In its Response in Opposition to Defendants’ Motion
for Summary Judgment, Plaintiff’s principal rebuttal
to Kardashian Defendants’ standing argument is that
the License Agreement does not reserve the right to
sue to protect the trademark in Tillett. (Doc. 132, p.
4-6). Plaintiff’s conclusory assertions fail to provide a
satisfactory interpretation of §§ 4.3.1 and 4.3.2 of the
License Agreement, whereby Kroma EU had contractual
authority to enforce the Kroma mark. Moreover, Plaintiff
points to no case, and the Court’s independent research
uncovered none, where a court found that a licensee had
standing to pursue a § 1125(a) claim notwithstanding a
licensing agreement allocating enforcement responsibility
with a licensor.
Since this Court finds that the License Agreement
deprives Kroma EU of standing, Kardashian Defendants
are entitled to summary judgment on the claims brought
under the Lanham Act, see supra, and the Florida common
law. See PetMed Express, Inc. v. MedPets.com, Inc., 336 F.
Supp. 2d 1213, 1218 (“The analysis of liability for Florida
common law trademark infringement is the same as under
the Lanham Act.” (citing Gift of Learning Found., Inc. v.
TGC, Inc., 329 F.3d 792, 793 (11th Cir. 2003))).
Kardashian Defendants also move for summary
judgment on the ground that Plaintiff’s claims are barred
by res judicata. Because Plaintiff lacks standing, the
Court does not reach the issue.

26a
Appendix B
B. Plaintiff ’s Motion for Partial Summary
Judgment
Plaintiff also moves for partial summary judgment on
the issue of liability. (Doc. 153). Because the Court finds
that Plaintiff lacks standing to bring the infringement
claims asserted in this matter, the Court denies Plaintiff’s
Motion for Partial Summary Judgment.
IV. CONCLUSION
For the aforementioned reasons, it is ORDERED
AND ADJUDGED as follows:
1.

Defenda nt s, K i m K a rdash ia n, Kou r tney
Kardashian, and Khloe Kardashian’s, Motion
for Summary Judgment (Doc. 118) is GRANTED.
Kardashian Defendants are entitled to summary
judgment on Plaintiff’s Complaint.

2.

The Clerk of Court is DIRECTED to enter the
following Judgment:

Judgment is entered in favor of Defendants,
Kim Kardashian, Kourtney Kardashian, and
Khloe Kardashian, and against Plaintiff,
Kroma Makeup EU, LLC. Plaintiff shall take
nothing from Defendants.
3.

Plaintiff’s Motion for Partial Summary Judgment
(Liability Only) (Doc. 153) is DENIED AS
MOOT.

27a
Appendix B
4.

The Clerk of Court is DIRECTED to terminate
all other pending motions (Doc. 120) and to close
the file.

DONE AND ORDERED in Orlando, Florida on
August 24, 2017.
/s/ Paul G. Byron
PAUL G. BYRON
UNITED STATES DISTRICT JUDGE

28a
AppendixOF
C REHEARING OF
APPENDIX C — DENIAL
THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT, FILED
JUNE 4, 2019
IN THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
No. 17-14211-FF
KROMA MAKEUP EU, LLC, A UNITED
KINGDOM LIMITED LIABILITY COMPANY,
Plaintiff-Appellant,
versus
BOLDFACE LICENSING + BRANDING, INC.,
A NEVADA CORPORATION, KIMBERLY
KARDASHIAN, A CALIFORNIA RESIDENT,
KOURTNEY KARDASHIAN, A CALIFORNIA
RESIDENT, KHLOE KARDASHIAN, A
CALIFORNIA RESIDENT, BY LEE TILLETT,
INC., A FLORIDA CORPORATION,
Defendants-Appellees.
Appeal from the United States District Court
for the Middle District of Florida
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC

29a
Appendix C
BEFORE: MARCUS and DUBINA, Circuit Judges,
and GOLDBERG, *Judge.
PER CURIAM:
The Petition(s) for Rehearing are DENIED and
no Judge in regular active service on the Court having
requested that the Court be polled on rehearing en banc
(Rule 35, Federal Rules of Appellate Procedure), the
Petition(s) for Rehearing En Banc are DENIED.

ENTERED FOR THE COURT:
/s/						
UNITED STATES CIRCUIT JUDGE

* Honorable Richard W. Goldberg, United States Court of
International Trade Judge, sitting by designation.

30a
Appendix
D
APPENDIX
D — 15 U.S.C.
§ 1125
15 U.S.C. § 1125
§ 1125. False designations of origin,
false descriptions, and dilution forbidden
(a) Civil action.
(1) Any person who, on or in connection with any
goods or services, or any container for goods, uses in
commerce any word, term, name, symbol, or device,
or any combination thereof, or any false designation of
origin, false or misleading description of fact, or false
or misleading representation of fact, which—
(A) is likely to cause confusion, or to cause mistake,
or to deceive as to the affiliation, connection, or
association of such person with another person, or
as to the origin, sponsorship, or approval of his or
her goods, services, or commercial activities by
another person, or
(B) in commercial advertising or promotion,
misrepresents the nature, characteristics, qualities,
or geographic origin of his or her or another
person’s goods, services, or commercial activities,
shall be liable in a civil action by any person who
believes that he or she is or is likely to be damaged
by such act.
(2) As used in this subsection, the term “any person”
includes any State, instrumentality of a State or

31a
Appendix D
employee of a State or instrumentality of a State acting
in his or her official capacity. Any State, and any such
instrumentality, officer, or employee, shall be subject
to the provisions of this Act in the same manner and
to the same extent as any nongovernmental entity.
(3) In a civil action for trade dress infringement under
this Act for trade dress not registered on the principal
register, the person who asserts trade dress protection
has the burden of proving that the matter sought to
be protected is not functional.
(b) Importation. Any goods marked or labeled in
contravention of the provisions of this section shall not
be imported into the United States or admitted to entry
at any customhouse of the United States. The owner,
importer, or consignee of goods refused entry at any
customhouse under this section may have any recourse by
protest or appeal that is given under the customs revenue
laws or may have the remedy given by this Act in cases
involving goods refused entry or seized.
(c) Dilution by blurring; dilution by tarnishment.
(1) Injunctive relief. Subject to the principles of
equity, the owner of a famous mark that is distinctive,
inherently or through acquired distinctiveness, shall
be entitled to an injunction against another person who,
at any time after the owner’s mark has become famous,
commences use of a mark or trade name in commerce
that is likely to cause dilution by blurring or dilution
by tarnishment of the famous mark, regardless of the
presence or absence of actual or likely confusion, of
competition, or of actual economic injury.

32a
Appendix D
(2) Definitions.
(A) For purposes of paragraph (1), a mark is famous
if it is widely recognized by the general consuming
public of the United States as a designation of
source of the goods or services of the mark’s
owner. In determining whether a mark possesses
the requisite degree of recognition, the court
may consider all relevant factors, including the
following:
(i) The duration, extent, and geographic reach
of advertising and publicity of the mark,
whether advertised or publicized by the owner
or third parties.
(ii) The amount, volume, and geographic extent
of sales of goods or services offered under the
mark.
(iii) The extent of actual recognition of the
mark.
(iv) Whether the mark was registered under the
Act of March 3, 1881, or the Act of February
20, 1905, or on the principal register.
(B) For purposes of paragraph (1), “dilution by
blurring” is association arising from the similarity
between a mark or trade name and a famous mark
that impairs the distinctiveness of the famous
mark. In determining whether a mark or trade

33a
Appendix D
name is likely to cause dilution by blurring, the
court may consider all relevant factors, including
the following:
(i) The degree of similarity between the mark
or trade name and the famous mark.
(ii) The deg ree of inherent or acquired
distinctiveness of the famous mark.
(iii) The extent to which the owner of the
famous mark is engaging in substantially
exclusive use of the mark.
(iv) The degree of recognition of the famous
mark.
(v) Whether the user of the mark or trade
name intended to create an association with
the famous mark.
(vi) Any actual association between the mark
or trade name and the famous mark.
(C) For purposes of paragraph (1), “dilution by
tarnishment” is association arising from the
similarity between a mark or trade name and a
famous mark that harms the reputation of the
famous mark.
(3) Exclusions. The following shall not be actionable as
dilution by blurring or dilution by tarnishment under
this subsection:

34a
Appendix D
(A) Any fair use, including a nominative or
descriptive fair use, or facilitation of such fair use,
of a famous mark by another person other than as
a designation of source for the person’s own goods
or services, including use in connection with—
(i) advertising or promotion that permits
consumers to compare goods or services; or
(ii) identifying and parodying, criticizing, or
commenting upon the famous mark owner or
the goods or services of the famous mark owner.
(B) A ll for ms of news repor ting and news
commentary.
(C) Any noncommercial use of a mark.
(4) Burden of proof. In a civil action for trade dress
dilution under this Act for trade dress not registered
on the principal register, the person who asserts trade
dress protection has the burden of proving that—
(A) the claimed trade dress, taken as a whole, is
not functional and is famous; and
(B) if the claimed trade dress includes any mark
or marks registered on the principal register,
the unregistered matter, taken as a whole, is
famous separate and apart from any fame of such
registered marks.

35a
Appendix D
(5) Additional remedies. In an action brought under
this subsection, the owner of the famous mark shall be
entitled to injunctive relief as set forth in section 34.
The owner of the famous mark shall also be entitled
to the remedies set forth in sections 35(a) and 36 [15
USCS § 1117(a) and 1118], subject to the discretion of
the court and the principles of equity if—
(A) the mark or trade name that is likely to cause
dilution by blurring or dilution by tarnishment was
first used in commerce by the person against whom
the injunction is sought after the date of enactment
of the Trademark Dilution Revision Act of 2006
[enacted Oct. 6, 2006]; and
(B) in a claim arising under this subsection—
(i) by reason of dilution by blurring, the person
against whom the injunction is sought willfully
intended to trade on the recognition of the
famous mark; or
(ii) by reason of dilution by tarnishment, the
person against whom the injunction is sought
willfully intended to harm the reputation of the
famous mark.
(6) Ownership of valid registration a complete bar
to action. The ownership by a person of a valid
registration under the Act of March 3, 1881, or the
Act of February 20, 1905, or on the principal register
under this Act shall be a complete bar to an action
against that person, with respect to that mark, that—

36a
Appendix D
(A) is brought by another person under the common
law or a statute of a State; and
(B)
(i) seeks to prevent dilution by blurring or
dilution by tarnishment; or
(ii) asserts any claim of actual or likely damage
or harm to the distinctiveness or reputation of
a mark, label, or form of advertisement.
(7) Savings clause. Nothing in this subsection shall
be construed to impair, modify, or supersede the
applicability of the patent laws of the United States.
(d) Cyberpiracy prevention.
(1)
(A) A person shall be liable in a civil action by the
owner of a mark, including a personal name which
is protected as a mark under this section, if, without
regard to the goods or services of the parties, that
person—
(i) has a bad faith intent to profit from that
mark, including a personal name which is
protected as a mark under this section; and
(ii) registers, traffics in, or uses a domain name
that—

37a
Appendix D
(I) in the case of a mark that is distinctive
at the time of registration of the domain
name, is identical or confusingly similar to
that mark;
(II) in the case of a famous mark that is
famous at the time of registration of the
domain name, is identical or confusingly
similar to or dilutive of that mark; or
(III) is a trademark, word, or name protected
by reason of section 706 of title 18, United
States Code, or section 220506 of title 36,
United States Code.
(B)
(i) In determining whether a person has a bad
faith intent described under subparagraph (A),
a court may consider factors such as, but not
limited to—
(I) the trademark or other intellectual
property rights of the person, if any, in the
domain name;
(II) the extent to which the domain name
consists of the legal name of the person or
a name that is otherwise commonly used to
identify that person;

38a
Appendix D
(III) the person’s prior use, if any, of the
domain name in connection with the bona
fide offering of any goods or services;
(IV) the person’s bona fide noncommercial
or fair use of the mark in a site accessible
under the domain name;
(V) the person’s intent to divert consumers
from the mark owner’s online location to
a site accessible under the domain name
that could harm the goodwill represented
by the mark, either for commercial gain or
with the intent to tarnish or disparage the
mark, by creating a likelihood of confusion
as to the source, sponsorship, affiliation, or
endorsement of the site;
(VI) the person’s offer to transfer, sell, or
otherwise assign the domain name to the
mark owner or any third party for financial
gain without having used, or having an
intent to use, the domain name in the bona
fide offering of any goods or services, or the
person’s prior conduct indicating a pattern
of such conduct;
(VII) the person’s provision of material and
misleading false contact information when
applying for the registration of the domain
name, the person’s intentional failure to
maintain accurate contact information,

39a
Appendix D
or the person’s prior conduct indicating a
pattern of such conduct;
(VIII) the person’s registration or acquisition
of multiple domain names which the person
knows are identical or confusingly similar to
marks of others that are distinctive at the
time of registration of such domain names,
or dilutive of famous marks of others that
are famous at the time of registration of
such domain names, without regard to the
goods or services of the parties; and
(I X) t he e x t ent t o wh ich t he ma rk
incorporated in the person’s domain name
registration is or is not distinctive and
famous within the meaning of subsection (c).
(ii) Ba d fa it h i nt ent de sc r ib e d u nder
subparagraph (A) shall not be found in any case
in which the court determines that the person
believed and had reasonable grounds to believe
that the use of the domain name was a fair use
or otherwise lawful.
(C) In any civil action involving the registration,
trafficking, or use of a domain name under this
paragraph, a court may order the forfeiture or
cancellation of the domain name or the transfer of
the domain name to the owner of the mark.

40a
Appendix D
(D) A person shall be liable for using a domain
name under subparagraph (A) only if that person
is the domain name registrant or that registrant’s
authorized licensee.
(E) As used in this paragraph, the term “traffics
in” refers to transactions that include, but are
not limited to, sales, purchases, loans, pledges,
licenses, exchanges of currency, and any other
transfer for consideration or receipt in exchange
for consideration.
(2)
(A) The owner of a mark may file an in rem civil
action against a domain name in the judicial district
in which the domain name registrar, domain name
registry, or other domain name authority that
registered or assigned the domain name is located
if—
(i) the domain name violates any right of the
owner of a mark registered in the Patent
and Trademark Office, or protected under
subsection (a) or (c); and
(ii) the court finds that the owner—
(I) is not able to obtain in personam
jurisdiction over a person who would have
been a defendant in a civil action under
paragraph (1); or

41a
Appendix D
(II) through due diligence was not able
to find a person who would have been a
defendant in a civil action under paragraph
(1) by—
(aa) sending a notice of the alleged
violation and intent to proceed under
this paragraph to the registrant of the
domain name at the postal and e-mail
address provided by the registrant to
the registrar; and
(bb) publishing notice of the action as the
court may direct promptly after filing
the action.
(B) The actions under subparagraph (A)(ii) shall
constitute service of process.
(C) In an in rem action under this paragraph, a
domain name shall be deemed to have its situs in
the judicial district in which—
(i) the domain name registrar, registry, or
other domain name authority that registered
or assigned the domain name is located; or
(ii) documents sufficient to establish control
and authority regarding the disposition of the
registration and use of the domain name are
deposited with the court.

42a
Appendix D
(D)
(i) The remedies in an in rem action under
this paragraph shall be limited to a court
order for the forfeiture or cancellation of the
domain name or the transfer of the domain
name to the owner of the mark. Upon receipt
of written notification of a filed, stamped copy
of a complaint filed by the owner of a mark
in a United States district court under this
paragraph, the domain name registrar, domain
name registry, or other domain name authority
shall—
(I) expeditiously deposit with the court
documents sufficient to establish the
court’s control and authority regarding the
disposition of the registration and use of the
domain name to the court; and
(II) not transfer, suspend, or otherwise
modify the domain name dur ing the
pendency of the action, except upon order
of the court.
(ii) The domain name registrar or registry
or other domain name authority shall not be
liable for injunctive or monetary relief under
this paragraph except in the case of bad faith
or reckless disregard, which includes a willful
failure to comply with any such court order.

43a
Appendix D
(3) The civil action established under paragraph (1)
and the in rem action established under paragraph
(2), and any remedy available under either such action,
shall be in addition to any other civil action or remedy
otherwise applicable.
(4) The in rem jurisdiction established under paragraph
(2) shall be in addition to any other jurisdiction that
otherwise exists, whether in rem or in personam.

